OIG Investigative Reports, Former SAT Tutor Sentenced In Manhattan Federal Court To 30 Months In Prison For Fraud Schemes
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney's Office
Southern District of New York
U.S. ATTORNEY PREET BHARARA
FOR IMMEDIATE RELEASE
Wednesday, March 14, 2012
http://www.justice.gov/usao/nys
CONTACT:    U.S. ATTORNEYS OFFICE
Ellen Davis,Carly Sullivan,
Jerika Richardson
(212) 637-2600
FORMER SAT TUTOR SENTENCED IN MANHATTAN FEDERAL
COURT TO 30 MONTHS IN PRISON FOR FRAUD SCHEMES
Preet Bharara, the United States Attorney for the Southern District of New York, announced that ROBERT FRIEDLAND, a former instructor with the Prep for Success program administered by the City University of New York Research Foundation ("CUNYRF"), was sentenced today in Manhattan federal court to 30 months in prison. He was found guilty of three counts of fraud after a three-day trial in June 2011. FRIEDLAND forged a federal judge's signature on documents he submitted to CUNYRF and also presented the foundation with more than $3 million in false grant award notifications that purported to be from the U.S. Department of Education. He was sentenced by U.S. District Judge Leonard B. Sand.
According to the trial evidence and other documents filed in the case:
In 2008, FRIEDLAND applied for a position as an instructor with the CUNYRF's Prepfor Success program, which prepares low income high school students for success in college. After a background check conducted by the CUNYRF revealed that FRIEDLAND had previously been convicted of a crime, he presented the foundation with a fraudulent court order that falsely claimed he had been the victim of identity theft and that the convictions revealed in his background check were not attributable to him. The purported court order contained the forged electronic signature of a U.S. District Court Judge in New Jersey. Based in part on the representations in the fraudulent order, FRIEDLAND was hired as an instructor by the CUNYRF.
In October 2009, FRIEDLAND presented the CUNYRF with documents purporting to be notifications awarding over $3 million of U.S. Department of Education grants authorized under the American Recovery and Reinvestment Act. He said these grants had been awarded to him and that he wished to transfer them to the CUNYRF. When the CUNYRF attempted to collect a portion of the grants reflected in the award notices provided by FRIEDLAND, the Department of Education discovered that the grant award notices were fraudulent and that the grants reflected in them did not exist.
* * *
FRIEDLAND, 64, resided in Elizabeth, New Jersey prior to his arrest in this case.
The charges against FRIEDLAND were investigated by the U.S. Department of Education's Office of the Inspector General.
This case is being handled by the Office's General Crimes Unit. Assistant U.S. Attorney Brian Blais in charge of the prosecution.
12-077
###.
Top
Printable view
Last Modified: 03/21/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov